No. 20-

 

 

IN THE
Supreme Court of the United States

Soo LINE RAILROAD COMPANY D/B/A
CANADIAN PACIFIC,

Petitioner,
v.

CONSOLIDATED RAIL CORPORATION, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,496 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 6, 2020.

Colin Casey Ge

Wilson-Epes Printing Co., Inc.
